HHS/OIG-Audit--"Administrative Costs Reflected on the Adjusted Community Rate Proposals Are Inconsistent Among Managed Care Organizations, (A-14-98-00210)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Administrative Costs Reflected on the Adjusted Community Rate Proposals
Are Inconsistent Among Managed Care Organizations," (A-14-98-00210)
January 27, 2000
Complete Text of Report is available in PDF format
(1.66 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that administrative costs claimed by 232 risk-based
managed care organizations (MCO) on their adjusted community rate (ACR) proposals
for each of the years 1996 through 1999 contained significant disparities among
plans. For example, for 1999 the average amount allocated by an MCO for administration
ranged from a high of 32 percent to a low of 3 percent. These disparities were
noted in every year of our review regardless of plan model (group, individual
practice association, or staff) or tax status (profit or nonprofit). Unlike
other areas of the Medicare program, a reasonable percentage or ceiling for
an administrative cost rate is not required by the Health Care Financing Administration
(HCFA). We recommended that HCFA institute a ceiling on the amount of administrative
costs that MCOs can claim on ACR proposals. For example, had a 15 percent ceiling
been in effect for 1998, an additional $1 billion may have been passed on to
Medicare beneficiaries in the form of additional benefits or reduced payments
(e.g., deductibles and/or co-insurance). The HCFA agreed that a more thorough
analysis of ACR proposals should be performed, but did not concur with our recommendation
of setting a ceiling on administrative costs, claiming that a ceiling may discourage
plans from developing cost efficient plans.